                              O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


A cting Ins pe ctor Ge ne ral



Council220 Union Re pre s e ntative and M anage r O bs e rvations on th e Us e and

M anage m e nt of O fficialTim e at th e SocialSe curity Adm inis tration



Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our s urve y of SocialSe curity

m anage rs and Council220 union re pre s e ntative s (A-02-9 7-72002). Th e obje ctive

of th is s urve y w as to obtain union re pre s e ntative and m anage r obs e rvations

conce rning th e us e and m anage m e nt of “officialtim e ”for union activitie s at th e

SocialSe curity Adm inis tration.


Ifyou ch oos e to offe r com m e nts , pl
e as e provide th e m w ith in th e ne xt 60 days . If
you w is h to dis cus s th e finalre port, ple as e cal
                                                      lm e or h ave your s taff contact
Pam e l
      a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at (410)9 65-9 700.




                                                   Jam e s G. H us e , Jr.

A ttach m e nt
cc:

O IG/ES

            e
Re ading Fil

Subje ct Fil
           e
O A :TNEE/SPA TTERSO N/m js :7-2-9 8
22RPT:Re port Fil
                e
                        EXECUTIVE SUM M ARY


O BJECTIVE

Th e obje ctive of th is re vie w w as to obtain union re pre s e ntative ’
                                                                          s and m anage r’
                                                                                         s
obs e rvations conce rning th e us e and m anage m e nt of “officialtim e ”for union
activitie s at th e SocialSe curity Adm inis tration (SSA ).

BACKGROUND

O fficialtim e is tim e during w h ich an e m pl     oye e oth e rw is e w ould be pe rform ing
A ge ncy as s igne d w ork , but th e e m pl   oye e is auth orize d by l  aw , re gul ation, or
ne gotiate d agre e m e nt to s pe nd tim e re pre s e nting union and/or bargaining unit
e m pl oye e s . Th e A ge ncy pays th e e m pl   oye e w h il

                                                             e th e y us e officialtim e as if th e y
w e re conducting A ge ncy bus ine s s . For m os t union re pre s e ntative s (UR), w h o are

in fie ld office s (FO )and te l e s e rvice ce nte rs (TSC), officialtim e fal   l
s into tw o
cate gorie s –bank and non-bank tim e . Eq uival          e nt cate gorie s e xis t for oth e r SSA
com pone nts . Bank tim e is ge ne ral      ly us e d for union-initiate d activitie s . Eve ry ye ar,
e ach union is al   locate d a s e t num be r of bank h ours to conduct re pre s e ntational
activitie s . Non-bank tim e is us e d for m anage m e nt initiate d activitie s . Th e re is no
lim it on non-bank tim e and union activitie s unde r “partne rs h ip”are counte d as
non-bank tim e .

In O ctobe r 19 9 6, th e Ge ne ralA ccounting O ffice (GA O )re l        e as e d a re port on union
activitie s at SSA (H EH S-9 7-3). It found th at officialtim e h ad incre as e d ove r
60 pe rce nt be tw e e n 19 9 0 and 19 9 5. Th e cos t to SSA for officialtim e in 19 9 5
w as $12.6 m il    lion. Additional   ly, GA O found th at 1,800, or ove r 3 pe rce nt of
SSA ’  s 52,000 bargaining unit e m pl       oye e s , w ork ing in th e ove r 1300 FO ’
  s , 130
O ffice s of H e arings and A ppe al    s , TSC’ s , Program Se rvice Ce nte rs , H e adq uarte rs

e tc., w e re de s ignate d as URs w h o coul     d us e officialtim e . Las tl   y, GA O re porte d
th at SSA ’  s track ing s y s te m for officialtim e unde rre porte d h ours in 19 9 5.

Bas e d upon th e GAO findings , th e Ch airm an of th e Subcom m itte e on Social
Se curity, H ous e Com m itte e on W ay s and M e ans re q ue s te d SSA ’  s O ffice of th e
Ins pe ctor Ge ne ral(O IG) to conduct an in-de pth and com pre h e ns ive re vie w of
taxpaye r finance d union activitie s at SSA . Th is is one in a s e rie s of re ports th at
th e O IG pl ans to produce in re s pons e to th at re q ue s t. W e pe rform e d a nationw ide
s urve y to col l
                e ct UR’ s and m anage r’s obs e rvations about th e us e and m anage m e nt
of officialtim e for union Council220 of th e A m e rican Fe de ration of Gove rnm e nt
Em pl oye e s (AFGE). Council220 re pre s e nts e m pl    oye e s in SSA ’s FO s and TSCs .



                                                  i
For th is re vie w , w e us e d tw o m ul  ti-purpos e cl  us te r s am pl  e s re pre s e nting a
nationw ide s e l  e ction of 271 FO s and TSCs . Th e s am pl           e s w e re obtaine d from
SSA ’  s O ffice of W ork force A nal   y s is (O W A ). W e m ail
   e d th e s urve y q ue s tionnaire s
in e arl y June 19 9 7 to th e m anage rs of th e s e l   e cte d s ite s to com pl
    e te and re turn to
O IG. W e al   s o as k e d th e m anage rs to forw ard a s e parate UR q ue s tionnaire to th e
UR in th e ir office to com pl    e te and re turn to O IG. O n O ctobe r 2, 19 9 7, w e
e xe cute d a s e cond m ail   ing to provide for any m is pl     ace d or dis carde d
q ue s tionnaire s caus e d by Council220’        s initialre luctance to participate in th e
s urve y.

RESULTS O F REVIEW


• URS D ID NO T A LW AYS CO M PLETE A N O FFICIA LTIM E FO RM (SSA -75) PRIO R
  TO USING O FFICIA LTIM E

• O FFICIA LTIM E REQUESTS W ERE RARELY D ENIED

• A LM O ST H A LF O F TH E M A NAGERS W ERE NO T INFO RM ED IN W RITING
  A BO UT W H O REPRESENTS TH E UNIO N IN TH EIR O FFICE

• A M A JO RITY O F TH E M A NAGERS AND URS DID NO T K NO W H O W M A NY
  BA NK H O URS W ERE A VA ILA BLE, TH US CREA TING A PO TENTIA LFO R
  EXCEED ING BA NK TIM E.

• SO M E M A NAGERS SUSPECTED A BUSE O F O FFICIA LTIM E

• M A NAGERS W ERE M O RE LIKELY TH A N URS TO REPO RT TH A T TH E O FFICIA L
  TIM E REPO RTING SYSTEM W AS NEITH ER ACCURATE NO R EFFECTIVE

• M A NAGERS H A D NO T RECEIVED A D EQUATE GUID A NCE O N TH E USE O F
  O FFICIA LTIM E

• NO T SURPRISINGLY, URS SPENT M O RE TH A N TW ICE AS M UCH O F TH EIR
  TIM E AS M A NAGERS O N UNIO N ACTIVITIES

CO NCLUSIO N

Th e re s pons e s to th e q ue s tionnaire s dis clos e d th at m anage rs and URs ge ne ral
                                                                                            ly
h ad diffe ring obs e rvations conce rning th e officialtim e s y s te m at SSA . M anage rs
found th e officialtim e s y s te m l   e s s accurate and e ffe ctive th an URs . M anage rs
als o did not be l ie ve th e y re ce ive d ade q uate guidance on th e us e of officialtim e .
M ore ove r, s om e m anage rs s us pe cte d abus e of officialtim e and th e m ajority of


                                                     ii
both m anage rs and URs did not k now h ow m any bank h ours w e re avail         abl e for
e ach UR to us e . Th e re s pons e s by m anage rs and URs re ve ale d th at th e re w as a
lack of unde rs tanding by s om e on h ow to prope rl  y re port and us e officialtim e .

AGENCY CO M M ENTS

Th e ful  lte xt of th e A ge ncy’   s com m e nts are containe d in A ppe ndix D . SSA
e m ph as ize d th at th e O IG Council220 re port is a col        l
                                                                   e ction of opinions and
pe rce ptions bas e d on an uns cie ntific s am pl    e . Ne ve rth e l e s s , th e A ge ncy s aw val    ue
in th e obs e rvations of URs and fie l     d office /te l
                                                         e s e rvice m anage rs . SSA note d th at
de cis ions by arbitrators and th e Fe de ralLabor Re l         ations A uth ority (FLRA)
e s tablis h e d cas e law th at s e ts forth th e practice s , proce dure s and l      im itations
gove rning th e us e and m anage m e nt of officialtim e . Th e A ge ncy be l             ie ve d th at th e
lim itations e s tabl  is h e d by cas e l
                                         aw undoubte dl    y h ad an e ffe ct on th e pe rce ptions
of office m anage rs .

Re s ponding to s pe cific findings , SSA be l     ie ve d th at th e re port indicate d th at m os t
m anage rs w h o s us pe cte d abus e initiate d action for re s ol     ution. A ls o, th e A ge ncy
s tate d th at th e obs e rvations in th e re port dis pl aye d a cl  e ar aw are ne s s and a
com parabl   e l e ve lof unde rs tanding by both m anage rs and URs about th e ne e d and
circum s tance s for com pl    e tion of th e officialtim e form . Final    ly, SSA s tate d th at
A FGE h as not e xce e de d its totalal     l
                                            ocation of bank h ours s ince th e conce pt w as
cre ate d w ith th e 19 9 0 Agre e m e nt.

O IG RESPO NSE

A s cie ntific s am pl
                     e provide d to th e O IG by SSA ’  s O W A w as us e d for th is s urve y.
H ow e ve r, w e re al
                     ize th at th e re w as a l
                                              ow re s pons e rate (52 pe rce nt) from URs
due to a l  ack of coope ration on th e ir part. In com paris on, 85 pe rce nt of th e
m anage rs re s ponde d to our s urve y.

In m ak ing our re com m e ndations , our inte nt is to e ns ure com pl   iance w ith th e
officialtim e re porting re q uire m e nts of th e curre nt col
                                                              le ctive bargaining
agre e m e nts . IfSSA is unabl    e to im pl
                                            e m e nt our re com m e ndations w ith in th e
confine s of th e curre nt agre e m e nts and th e param e te rs s e t by adm inis trative cas e
law , it s h ould addre s s th e m during ne gotiations for future col  le ctive bargaining
agre e m e nts . Ifs uch ne gotiations prove uns ucce s s ful  , SSA m ay w is h to s e e k a
le gis l           ution.
       ative re s ol

W e be lie ve th at th e pe rce ptions provide d by th e URs and office m anage rs h igh l    igh t
pote ntialw e ak ne s s e s w ith th e us e and re porting of officialtim e . Tw e nty pe rce nt
of th e m anage rs re porte d th at th e y took no action w h e n th e y s us pe cte d abus e of
officialtim e . M anage rs and th e URs re porte d th at officialtim e form s w e re
com pl e te d afte r officialtim e us e and th at th e duration of tim e ne e de d for union


                                                     iii
activitie s w as a cons ide ration in w h e th e r or not to re port officialtim e . Th e lack of
re porting s m allam ounts of officialtim e us e d and l     ack of k now l  e dge of h ow m any
bank h ours w e re avail   abl  e cre ate s an e nvironm e nt w h e re individualURs coul  d
unk now ingl  y e xce e d th e ir al
                                   lotte d bank tim e .

Th e re s pons e s to th e s urve y s ugge s t th at th e re are m anage rs and URs w h o are
unce rtain about officialtim e proce dure s and th at th e proce dure s are not adh e re d
to in s om e SSA office s . In th e com m e nts to th is re port, SSA indicate d th at it is
active ly providing guidance on th e us e and m anage m e nt of officialtim e to its
m anage rs . Itm ay be appropriate to provide guidance to al            lindividual  s invol
                                                                                           ve d in
th e us e of officialtim e , incl uding union re pre s e ntative s , to h e l
                                                                            p e ns ure com pliance
w ith al lof th e pol icie s and proce dure s containe d in th e NationalA gre e m e nt
be tw e e n AFGE and SocialSe curity Adm inis tration (A gre e m e nt).




                                                iv
                           TA BLE O F CO NTENTS

                                                                                                   Page

EXECUTIVE SUM M A RY..........................................................................i


INTRO D UCTIO N ...................................................................................1


RESULTS O F REVIEW ...........................................................................5


    URS D ID NO T A LW AYS CO M PLETE A N O FFICIA LTIM E FO RM

    (SSA -75) PRIO R TO USING O FFICIA LTIM E..........................................5


    O FFICIA LTIM E REQUESTS W ERE RARELY D ENIED ..............................7


    A LM O ST H A LF O F TH E M A NAGERS W ERE NO T INFO RM ED IN

    W RITING A BO UT W H O REPRESENTS TH E UNIO N IN TH EIR

    O FFICE...........................................................................................7


    A M A JO RITY O F TH E M A NAGERS AND URS DID NO T K NO W 

    H O W M A NY BANK H O URS W ERE A VA ILA BLE, TH US CREA TING

    A PO TENTIA LFO R EXCEED ING BA NK TIM E ........................................8


    SO M E M A NAGERS SUSPECTED A BUSE O F O FFICIA LTIM E ...................9


    M A NAGERS W ERE M O RE LIKELY TH A N URS TO REPO RT TH E

    O FFICIA LTIM E REPO RTING SYSTEM W AS NEITH ER ACCURATE

    NO R EFFECTIVE ..............................................................................9


    � Sys te m A ccuracy ........................................................................9


    � Sys te m Effe ctive ne s s ................................................................. 11


    M A NAGERS H A D NO T RECEIVED A D EQUATE GUID A NCE O N TH E

    USE O F O FFICIA LTIM E .................................................................. 12


    NO T SURPRISINGLY, URS SPENT M O RE TH A N TW ICE AS M UCH

    O F TH EIR TIM E AS M A NAGERS O N UNIO N ACTIVITIES ...................... 12


CO NCLUSIO N .................................................................................... 14

A PPEND ICES

A PPEND IX A - Union Re pre s e ntative ’
                                        s Surve y Q ue s tionnaire

A PPEND IX B - M anage r’
                        s Surve y Q ue s tionnaire

A PPEND IX C - O fficialTim e Form , Form SSA -75

A PPEND IX D - Age ncy Com m e nts

A PPEND IX E - M ajor Re port Contributors

A PPEND IX F - SSA O rganizationalCh art
                                 INTRO D UCTIO N


O BJECTIVE

Th e obje ctive of th is re vie w w as to obtain union re pre s e ntative ’
                                                                          s and m anage r’
                                                                                         s
obs e rvations conce rning th e us e and m anage m e nt of “officialtim e ”for union
activitie s at SSA .

BACKGROUND

Fe de rale m pl  oye e s h ave h ad th e righ t to join unions s ince th e e arl        y 19 00s . In
19 12, th e Ll  oyd-LaFol    le tte  A ct gav e  pos tal  e m  pl oye e s th e righ t to join unions and
th e re by se t a pre ce de nt for al   loth e r Fe de rale m pl    oye e s . In 19 62, Pre s ide nt
K e nne dy’ s Exe cutive O rde r (EO )109 88 e s tabl         is h e d a fram e w ork for Fe de ral
age ncie s to bargain w ith unions ove r w ork ing conditions and pe rs onne lpractice s .
In 19 69 , Pre s ide nt Nixon’     s EO 1149 1 cre ate d th e Fe de ralLabor Re l         ations Council
to pros cribe re gul   ations for re s ol  ving l abor dis pute s and to arbitrate grie vance s . In
19 78, th e CivilSe rvice Re form A ct of 19 78 (CSRA )provide d th e curre nt s tatutory
bas is for l abor/m anage m e nt (L/M )re l      ations and cre ate d th e FLRA. M os t re ce ntl     y,
in 19 9 3, Pre s ide nt Cl  inton’  s EO 12871 cal      le d for a l   abor/m anage m e nt
“partne rs h ip”th at w oul     d invol ve unions as ful      lpartne rs w ith m anage m e nt in
ide ntifying and re s ol   ving probl   ems.

O fficialTim e

In 19 62, EO 109 88 s e t th e pre ce de nt for al low ing Fe de ralage ncie s to grant
officialtim e , w h ich is paid tim e off at th e age ncy’s discre tion from norm al
Gove rnm e nt dutie s to conduct contract ne gotiations . In 19 69 , EO 1149 1
proh ibite d th e us e of officialtim e to ne gotiate s uch agre e m e nts , but in 19 78 th e
CSRA re s tore d th e us e of officialtim e for contract ne gotiations .

For m os t URs , w h ich are in FO s and TSCs , officialtim e fal         ls into tw o cate gorie s –
bank and non-bank tim e . Eq uival         e nt cate gorie s e xis t for oth e r SSA com pone nts .
Bank tim e is ge ne ral   l
                          y us e d for union-initiate d activitie s . Eve ry ye ar e ach union
councilis al    locate d a s e t num be r of bank h ours to conduct re pre s e ntational
activitie s . Non-bank tim e is us e d for m anage m e nt-initiate d activitie s . Th e re is no
lim it on non-bank tim e . Union activitie s unde r “partne rs h ip”are counte d as non-
bank tim e . Th e CSRA proh ibits th e us e of officialtim e for inte rnalunion bus ine s s ,
but continue d th e pol    icy th at age ncie s w oul  d provide unions w ith s e rvice s and
facil itie s at th e age ncy’ s e xpe ns e .


                                                   1

SSA ’
    s Unions

SSA e m pl   oye e s are re pre s e nte d by th re e unions : th e A m e rican Fe de ration of
Gove rnm e nt Em pl    oye e s (AFGE), th e NationalTre as ury Em pl       oye e s Union (NTEU),
and th e NationalFe de ration of Fe de ralEm pl        oye e s (NFFE). O f SSA ’    s 65,000
e m pl oye e s , about 52,000 are non-s upe rvis ory and are re pre s e nte d by unions . O f
th os e , 9 6 pe rce nt are re pre s e nte d by AFGE. A pproxim ate l    y 47 pe rce nt of all
bargaining unit e m pl    oye e s pay due s to th e ir re s pe ctive unions .

Th e re is one contract be tw e e n SSA and A FGE and s ix contracts w ith individual
com pone nts of NTEU and NFFE. M ul          tipl
                                                e units w ith in A FGE re pre s e nt diffe re nt
SSA com pone nts . Council220 re pre s e nts bargaining unit e m pl           oye e s in FO s and
at TSCs . Local19 23, w h ich is tre ate d as a council      , re pre s e nts allH e adq uarte rs
ope rations . Council109 , re pre s e nts th e w ork e rs at s ix program s e rvice ce nte rs
(PSC);Council215, re pre s e nts fie l    d ope rations s taff of th e O ffice of H e arings and
A ppe al s (O H A );Council224 re pre s e nts th e Re gionalO ffice of Program Inte grity
and Re vie w s ;and Council221 re pre s e nts th e D ata O pe rations Ce nte r. Th e NTEU
and NFFE re pre s e nt e m pl oye e s from various oth e r office s w ith in O H A .
Additional  ly, th e re are about 100 FO s th at are non-union office s . (i.e ., th e re is no
UR be caus e none of th e e m pl   oye e s are union m e m be rs .)

GAO Re port on SSA Unions

In O ctobe r 19 9 6, GA O re l   e as e d a re port on union activitie s at SSA (H EH S-9 7-3).
Th e re port s tate d th at th e us e of officialtim e at SSA h ad incre as e d ove r 60
pe rce nt from 254,000 to 413,000 h ours pe r ye ar be tw e e n 19 9 0 and 19 9 5. Th e
cos t to SSA for officialtim e in 19 9 5 w as $12.6 m il         ion. Additional
                                                                 l                  ly, GA O
re porte d th at 1,800, or ove r 3 pe rce nt of SSA ’      s 52,000 bargaining unit
e m ploye e s , w ork ing in th e ove r 1300 FO ’    s , 130 O H A ’ s , TSC’ s , PSC’ s,
H e adq uarte rs e tc., w e re de s ignate d as URs w h o coul     d us e officialtim e . M ore ove r,
145 of th e s e e m pl  oye e s w e re de s ignate d as ful l
                                                            -tim e URs . Th e 145 ful     l
                                                                                          -tim e
e m ploye e s for 19 9 5 re pre s e nte d an 80 pe rce nt incre as e ove r th e 80 ful    -tim e URs
                                                                                          l
in 19 9 3. Las tl  y, GA O re porte d th at SSA ’    s track ing s y s te m for officialtim e
unde rre porte d h ours in 19 9 5.

O IG Re vie w s

In addition to our re vie w of e m pl oye e obs e rvations on th e us e of officialtim e , O IG
is conducting re vie w s of th e us e of officialtim e for union activitie s at SSA , and
“partne rs h ip”activitie s . Th e fol
                                     low ing additionalre ports w illbe is s ue d conce rning
th e s e re vie w s :

   • Us e of O fficialTim e for Union A ctivitie s at th e SocialSe curity
     Adm inis tration (A -13-9 7-72013)


                                                  2

    • Non-Council220 Union Re pre s e ntative and M anage r O bs e rvations on th e
      Us e and M anage m e nt of O fficialTim e at th e SocialSe curity Adm inis tration
      (A-02-9 8-02002)

    • Partne rs h ip A ctivitie s at th e SocialSe curity Adm inis tration
      (A-13-9 8-72023)

SCO PE AND M ETH O D O LO GY

For th is re vie w , w e us e d tw o 10 pe rce nt m ul  ti-purpos e cl us te r s am ple s ide ntifying
a nationw ide s e l   e ction of FO and TSC s ite s , re pre s e nte d by union Council220.
W e obtaine d a com bine d s am pl     e of 271 s ite s from SSA ’    s O W A . In June 19 9 7,
w e m ail  e d th e s urve y (Appe ndix B) to th e m anage rs of th e s e l  e cte d s ite s for th e
firs t tim e . W e as k e d th e m anage rs to com pl  e te and re turn th e s urve y
q ue s tionnaire s and to forw ard a s e parate q ue s tionnaire (Appe ndix A ) to th e UR in
th e ir office . If th e re w as m ore th an one UR, w e as k e d th e s e nior UR to com pl       e te
and re turn th e s urve y.

W h e n w e firs t m ail e d th e q ue s tionnaire s in June 19 9 7, Council220 m e m be rs w e re
advis e d by union l    e ade rs not to com pl     e te th e s urve y. Afte r s e ve ralm e e tings and
corre s ponde nce w ith SSA and Union official             s , th e n Acting Com m is s ione r
Joh n J. Cal  lah an ins tructe d Age ncy official        s to coope rate w ith our re vie w . Th e
union ch ange d its pos ition in l      ate Se pte m be r w h e n al   lCouncil220 m e m be rs w e re
advis e d to coope rate and com pl         e te th e s urve y, but to ignore four s pe cific s urve y
q ue s tions d e e m e d to be of an im prope r nature (q ue s tions 2, 3, 5 and 31). In
anticipation of m is pl    ace d or dis carde d q ue s tionnaire s , w e pe rform e d a s e cond
m ail ing in O ctobe r 19 9 7. Additional        ly, w e m ade fol    ow -up ph one cal
                                                                      l                  ls to non-
re s ponde nts from June th rough Nove m be r 19 9 7.

Th e re s ul ts of our re vie w are bas e d on th e re ce ipt of 231 m anage r q ue s tionnaire s
(an 85 pe rce nt re s pons e rate )and 125 UR q ue s tionnaire s (a 52 pe rce nt re s pons e
rate ). Th irty-one office s coul   d not participate due to th e fact th at th e office w as a
non-union office , th e office h ad no UR, or th e UR w as jus t re ce ntl       y el e cte d and,
th e re fore , could not provide e xpe rie nce d re s pons e s . Th e re fore , w e re duce d th e
271 s ite s by 31 in com puting th e UR re s pons e rate . Tw o URs re fus e d to com pl           e te
th e q ue s tionnaire . Cons ide ring th e s e e xpl
                                                   anations , w e accounte d for 9 6 pe rce nt
and 58 pe rce nt, re s pe ctive l y, of th e m anage r and UR q ue s tionnaire s s e nt.

Th e UR re s pons e rate w as not as h igh as w e h ad h ope d. Eve n s o, w e be l      ie ve th at
it is im portant to re port th e re s pons e s of th os e w h o ch os e to coope rate w ith our
s urve y. Itis not our inte ntion to indicate th at th os e re s pons e s re fle ct th e
pe rce ptions or opinions of th e e ntire popul     ation of URs .




                                                   3

Nine ty-nine pe rce nt of th e re s ponding URs and 86 pe rce nt of th e re s ponding
m anage rs re porte d th at th e y w ork e d at th e s am e s ite as e ach oth e r. O n ave rage ,
th e re s ponde nts to th e m anage r q ue s tionnaire s h ad be e n m anage rs /s upe rvis ors for
14 ye ars , and th e re s ponde nts to th e UR q ue s tionnaire s h ad be e n URs for ove r
6 ye ars . A lth ough th is w as one of th e four q ue s tions URs w e re advis e d not to
ans w e r, 70 pe rce nt ch os e to re s pond.

W e de s igne d th e q ue s tionnaire s s o th at both th e m anage rs and th e URs w e re
as k e d bas ical
                ly th e s am e q ue s tions . W e place d prim ary e m ph as is on th e us e of
officialtim e in th e ir office s . O ne q ue s tion conce rning s us pe cte d abus e of official
tim e w as pos e d to onl   y th e m anage rs . Th e pe rce ntage s s h ow n in th e re port are
bas e d on th e num be r of re s ponde nts ans w e ring e ach q ue s tion.

Th e inform ation containe d in th is re port is bas e d on th e pe rce ptions of th e
m anage rs and URs w h o com pl      e te d and re turne d q ue s tionnaire s . W e did not
col le ct s upporting e vide nce to ve rify any inform ation give n in th e re s pons e s s ince
th e obje ctive of th is re vie w w as s im ply to obtain th e ir obs e rvations . Al s o, our
corre s ponding re port, “   Us e of O fficialTim e for Union A ctivitie s at th e Social
Se curity Adm inis tration,”provide s docum e ntation to s upport m any of th e
obs e rvations cite d in th is re port.

W e conducte d our re vie w from A prilto D e ce m be r 19 9 7. Th is e val
                                                                          uation w as
pe rform e d in accordance w ith th e Q ual
                                          ity Standards for Ins pe ctions is s ue d by th e
Pre s ide nt’
            s Councilon Inte grity and Efficie ncy.




                                                4

                                RESULTS O F REVIEW

Th e m anage rs and URs re s ponding to th e s urve y ge ne ral      ly h ad diffe ring
obs e rvations conce rning th e us e and re porting of officialtim e . M anage rs re porte d
th at th e pre s e nt s y s te m doe s not accurate ly capture th e am ount of tim e actual  l
                                                                                             y
s pe nt on officialtim e . Th e y note d th at officialtim e form re q ue s ts w e re not al
                                                                                           w ay s
com pl  e te d prior to us ing officialtim e and th at s om e m anage rs s us pe cte d abus e of
officialtim e us age . Th e m anage rs al           ie ve d th e y coul
                                             s o be l                                    y
                                                                       d not e ffe ctive l
s upe rvis e th e us e of officialtim e s ince th e y do not m onitor th e URs ’activity once
officialtim e is approve d.

In contras t, URs re porte d th e y w e re s atis fie d w ith th e officialtim e re porting
s y s te m . URs b e l
                     ie ve d th e tim e re porting s y s te m to be accurate and e ffe ctive .
Th e y re porte d th at officialtim e re q ue s ts w e re not al w ay s com ple te d, and th e URs
cite d th e nature and duration of th e union activity as contributing factors .
H ow e ve r, both m anage rs and URs agre e d th at officialtim e re q ue s ts w e re rare l   y
de nie d.

URS D ID NO T A LW AYS CO M PLETE AN OFFICIA LTIM E FO RM (SSA -75) PRIO R TO
USING O FFICIA LTIM E

A rticle 30 of th e A gre e m e nt s e ts forth th e pol    icy for th e us e of officialtim e .1
Spe cifical  ly, s e ction G s tate s th at “Unl  e s s oth e rw is e arrange d, union
re pre s e ntative s for fie l
                             d office s w illbe re q uire d to re q ue s t and arrange w ith
appropriate m anage m e nt official      s in advance for th e ir us age of officialtim e by
us ing Form SSA -75.” A m ajority of th e m anage rs and URs re porte d th at Form s
SSA -75 (A ppe ndix C)w e re com pl        e te d be fore us ing th e officialtim e . H ow e ve r, a
num be r re s ponde d th at Form s SSA-75 w e re com pl            e te d afte r th e us e of official
tim e . (Se e Tabl    e 1.)

                                                  Tabl
                                                     e 1
                                   Tim ing of Form SSA -75 Com pl
                                                                e tion

                                               M anage rs                Union Re pre s e ntative s
Be fore Us ing O fficialTim e                     55%                              55%
A fte r Us ing O fficialTim e                     15                               18
About Eq ual                                      16                               24
O th e r                                          10                                3

1
    Se e A rticl
               e 30, A ppe ndix F, s e ction G of th e A gre e m e nt.


                                                           5
D id Not K now                                 4                               0

M os t of th e m anage rs and URs re porte d th at Form s SSA-75 w e re not al     w ay s
com pl  e te d for a union activity be caus e s m al
                                                   lpe riods of tim e (e .g. 15 m inute s or
l
e s s )w e re not re porte d. (Se e Graph	 1.)
                                                Graph 1

                             Fre q ue ncy of Form SSA -75 Com pl
                                                               e tion

     100%

      80%
                                   56% 58%
      60%                                                                    M anage rs
                       40%
      40%        31%                                                         Union Re pre s e ntative s

      20%                                                 13%
                                                                2%
       0%
                 Alw ays             D id Not
             O th e r
               Com pl e te        Re port Sm all

              Form SSA-75          Pe riods of

                                      Tim e


Typical  l
         y, th e tim e ne e de d for th e union activity w as tak e n into cons ide ration
w h e n de ciding w h at to re port as officialtim e . A m ajority of m anage rs and URs
re porte d th at th e duration of th e activity w as e ith e r one factor in de ciding to re port
officialtim e or w as th e onl   y factor for th at de cis ion. O ne -th ird of both th e
m anage rs and URs s tate d th at onl     y th e nature of th e activity w as th e de te rm ining
factor in re porting officialtim e . (Se e Tabl   e 2.)

                                           Tabl  e 2
                  Factors D e te rm ining W h e n O fficialTim e is Re porte d

                                             M anage rs               Union Re pre s e ntative s
Both th e Nature and D uration of               44%                            49 %
A ctivity
Nature of A ctivity                                 35                             35
D uration of A ctivity                               7                              3
O th e r                                            12                             13
D id Not K now                                       2                              0




                                                     6

O FFICIA LTIM E REQUESTS W ERE RARELY D ENIED

Th e m ajority of m anage rs and URs re porte d th at officialtim e w as rare l   y de nie d or
ne ve r de nie d. O nl y 18 pe rce nt of th e m anage rs re porte d de nying officialtim e
m ore th an once a ye ar. (Se e Tabl    e 3.) Th e m os t com m on re as on furnis h e d for an
officialtim e re q ue s t de nialw as an e xige ncy of bus ine s s .

                                             Table 3
                      Fre q ue ncy of D e nialfor O fficialTim e Re q ue s ts

                                      M anage rs         Union Re pre s e ntative s
M ore Th an O nce a W e e k                2%                        0%
About O nce a W e e k                      2                         0
A Coupl   e of Tim e s a M onth            2                       12
A Coupl   e of Tim e s a Ye ar            12                       16
Rare l y (Le s s Th an O nce a Ye ar)     47                       36
O nl y O nce                               8                         8
Ne ve r                                   16                       16
O th e r                                  11                       12

A LM O ST H A LF O F TH E M A NAGERS W ERE NO T INFO RM ED IN W RITING A BO UT
W H O REPRESENTS TH E UNIO N IN TH EIR O FFICE

A rticl
      e 30, s e ction 2C, of th e A gre e m e nt s tate s , “Th e partie s agre e th at for
A ppe ndix F, SSA w il lonly grant officialtim e to th os e official      s d e s ignate d in w riting
by th e NationalCouncil   .”

A rticle 30, A ppe ndix F, s e ction E indicate s th e LocalPre s ide nt is re s pons ibl
                                                                                        e for
de s ignating th e localand as s is tant URs for e ach FO w ith in th e ir ge ograph ic
boundarie s . Sl  igh tl
                       y m ore th an h al f of th e m anage rs and URs re porte d th at age ncy
m anage rs w e re notifie d in w riting about th e de s ignation of th e UR for th e ir office .
A l arge pe rce ntage al s o re porte d th e UR notifie d th e m anage r, but not in w riting.
(Se e Tabl e 4.)




                                                  7

                                              Tabl e 4
                        M anage r Notification of th e Union Re pre s e ntative

                                           M anage rs            Union Re pre s e ntative s
M anage r Inform e d in                        51%                         55%
W riting
UR Inform e d th e M anage r                    42                             50
Som e one O th e r Th an UR                     31                             18
Inform e d th e M anage r
O th e r                                          9                            12
(M anage rs and URs coul    d give m ul
                                      tipl
                                         e ans w e rs to th is q ue s tion s o th e totalre s pons e s
 are gre ate r th an 100 pe rce nt.)

A M A JO RITY O F TH E M A NAGERS AND URS DID NO T K NO W H O W M ANY BANK
H O URS W ERE A VA ILA BLE, TH US CREA TING A PO TENTIA LFO R EXCEED ING
BANK TIM E

A rticle 30, A ppe ndix F, s e ction F of th e A gre e m e nt dis cus s e s th e conce pt of
“bank tim e ”and th e purpos e s for w h ich it can be us e d. Th e am ount of h ours
avail able for l
               ocalre pre s e ntative s is addre s s e d in s ubs e ction 3b w h ich s tate s ,

         “W ith re s pe ct to bank tim e (Se ction F.1.), l   ocalre pre s e ntative s /as s is tant
         localre pre s e ntative s m ay, upon w ritte n auth orization from th e Council          , us e
         up to th e fol  low ing lim its from th e ir al
                                                       location: O ffice s w ith unde r 70
         e m ploye e s --up to 4 h ours pe r w e e k . O ffice s w ith 70 or m ore e m pl   oye e s --up
         to 10 h ours pe r w e e k .”

Th e m ajority of m anage rs (58 pe rce nt)and URs (55 pe rce nt)re porte d th e y did not
k now h ow m any bank h ours th e UR is al    locate d annual   l
                                                                y. M ore ove r, 56 pe rce nt
of th e m anage rs and 43 pe rce nt of th e URs did not k now h ow bank h ours w e re
dis tribute d. Cons e q ue ntl
                             y, m anage rs w e re auth orizing and URs w e re us ing bank
tim e w ith out k now ing h ow m any h ours w e re avail abl e.

Eve n th ough a m ajority of m anage rs did not k now h ow m any bank h ours th e ir URs
w e re al lotte d, m os t did not q ue s tion th e al
                                                    location of officialtim e be tw e e n bank
and non-bank cate gorie s . O ne q uarte r of th e m anage rs re porte d q ue s tioning th e
all
  ocation of officialtim e be tw e e n bank and non-bank and th e ir s ub-cate gorie s .
Th irte e n pe rce nt of URs re s ponde d th at th e allocation of officialtim e be tw e e n
cate gorie s h ad be e n q ue s tione d.




                                                          8

SO M E M A NAGERS SUSPECTED A BUSE O F O FFICIA LTIM E

W e as k e d th e m anage rs , but not th e URs , about s us pe cte d abus e of officialtim e .
O ne q uarte r of th e m anage rs s us pe cte d abus e of officialtim e . Se ction 3 of
      e 30 addre s s e s th e is s ue of al
A rticl                                   le gations of abus e of officialtim e . Its tate s ,

       “A lle ge d abus e s of officialtim e s h al
                                                  lbe brough t to th e atte ntion of an
       appropriate m anage m e nt officialon a tim e l  y bas is by supervis ors and
       m anage m e nt official s . Th e m anage m e nt officialw il
                                                                  lth e n dis cus s th e m atte r
       w ith th e localor councilpre s ide nt as appropriate .”

O ve r h alf of th e m anage rs w h o s us pe cte d abus e of officialtim e e ith e r s pok e w ith
th e UR w h o w as s us pe cte d of abus e (15 pe rce nt)or dis cus s e d it w ith or re porte d
it to s upe riors (41 pe rce nt). Tw e nty pe rce nt of m anage rs re porte d th e y did
noth ing. Th e oth e r 24 pe rce nt of m anage rs re porte d various oth e r re s pons e s , s uch
as th e y did not k now h ow to purs ue s us pe cte d abus e or th e re w as no w ay to
s ubs tantiate th e abus e . Som e of th e m anage rs s tate d th at th e y re porte d
s us pe cte d abus e , but be lie ve d th at no one w as inte re s te d or th e y w e re
s ubs e q ue ntl
               y tol d to approve th e re q ue s t. O ne m anage r s aid h e took no action
be caus e , “. . . w e w e re ins tructe d not to do anyth ing.”

M A NAGERS W ERE M O RE LIKELY TH AN URS TO REPO RT TH A T TH E O FFICIA L
TIM E REPO RTING SYSTEM W AS NEITH ER ACCURATE NO R EFFECTIVE

Sys te m A ccuracy

Th e m anage rs and URs h ad diffe ring opinions on th e accuracy of th e s y s te m for
re porting officialtim e . A h igh e r pe rce ntage of m anage rs th an URs re porte d th e
s y s te m as inaccurate . Conve rs e ly m os t of th e URs re porte d th e s y s te m to be
s om e w h at or ve ry accurate . (Se e Tabl   e 5.)

                                           Table 5
                   A ccuracy of th e Sys te m for Re porting O fficialTim e

                                   M anage rs         Union Re pre s e ntative s
Ve ry Inaccurate                       26%                      15%
Som e w h at Inaccurate               21                         8
Som e w h at A ccurate                33                        27
Ve ry Accurate                        14                        45
O th e r                                3                         4
D id Not K now                          3                         1




                                                 9

W h e n as k e d to e l aborate on th e ir re s pons e s , 9 6 m anage rs (out of 187 w h o
re s ponde d to th is q ue s tion)and 17 URs (out of 89 )h ad dis approving com m e nts on
th e accuracy of th e s y s te m . Som e m anage rs s aid th e re porting s y s te m is h onor
bas e d and s ince m anage rs did not k now any s pe cifics of w h at th e
re q ue s te d/re porte d tim e is b e ing s pe nt on, th e y coul  d not k now w ith any ce rtainty
if th e re porte d tim e is corre ct. Sim il   arly, th e y al

                                                              s o s aid th e union de te rm ine s
w h e th e r tim e is re porte d as “bank ”or “non-bank ”and th at m anage rs are

dis courage d from q ue s tioning th e de te rm ination.


Som e m anage rs re porte d particul    ar conce rns ove r ph one cal  ls . W h e n a UR is on
th e ph one , th e m anage rs do not k now w h e th e r th e UR is e ngage d in union or
A ge ncy bus ine s s . O th e r m anage rs s aid th e y did not ful
                                                                  ly unde rs tand w h at s h ould
be re porte d and be l ie ve th at m anage m e nt and union official  s do not inte rpre t
re porting ins tructions th e s am e w ay. Som e URs s aid th at non-bank tim e is not
re porte d re gul arl
                    y and re porting accuracy is s us pe ct be caus e tim e of l   e s s th e n
15 m inute s is not re porte d.

M any of th e URs (52 out of 89 )h ad favorabl          e com m e nts on th e accuracy of th e
s y s te m . W h e n as k e d to q ual
                                     ify w h y th e y found th e s y s te m accurate , s om e of th e
URs s aid th e SSA -75 is w e l     lde s igne d to capture th e various cate gorie s of official
tim e . Th e m ajority s tate d it w as accurate s ince th e y track and re port al      lofficial
tim e . O ne UR s tate d, “    Ik now h ow im portant officialtim e is and w oul      d ne ve r
w ant to be accus e d of abus ing it.”

Fifty-e igh t (out of 187)of th e m anage rs com m e nte d favorabl        y on th e s y s te m ’
                                                                                                s
accuracy cove ring tw o ge ne ralcate gorie s . M anage rs of s m al        loffice s w e re aw are
of w h at th e URs w e re doing and/or th e UR w as cons cie ntious and forth com ing,
w h ich e s tabl                             ations h ip be tw e e n th e tw o.
                is h e d a good w ork ing re l

Eve n th ough m any of th e m anage rs found th e re porting s y s te m to be inaccurate ,
th e y did not h ave s ol  utions to ch ange it. W h e n as k e d w h at ch ange s th e y w oul d
m ak e in th e s y s te m for re porting officialtim e , 60 pe rce nt of m anage rs re s ponde d
th at th e y w oul d m ak e no ch ange s and 8 pe rce nt did not k now . Five pe rce nt of
m anage rs th ough t th e re s h oul  d be cle are r guide l
                                                           ine s on re q ue s ting and us ing
officialtim e and anoth e r 5 pe rce nt s aid re as ons for th e tim e re q ue s te d s h ould be
s h ow n on th e SSA -75. Five pe rce nt s ugge s te d s om e type of autom ate d s y s te m .

Se ve nte e n pe rce nt of m anage rs provide d various oth e r s ugge s tions . Tw o
m anage rs s ugge s te d th e ne e d for training. O ne m anage r th ough t th e e ntire
s y s te m ne e de d to be ove rh aule d. A noth e r re com m e nde d th at union-re l
                                                                                     ate d
te le ph one cal  ls s h oul
                           d go th rough m anage m e nt s o th e individualcoul    d be re l
                                                                                           e as e d
from SSA duty. O th e r m anage rs th ough t th e re s h oul     d be a cons ol idation of
track ing tim e rath e r th an bank tim e and non-bank tim e . O th e rs did not care for
th e de s ign of th e Form SSA -75, w h ich one m anage r s aid doe s not provide for


                                                 10

m any union activitie s s uch as “partne rs h ip.” A noth e r did not care for th e cate gory
of m idte rm bargaining on th e form , w h e re it w as s ugge s te d a s ignificant am ount of
tim e is ch arge d w ith out any cl
                                  e ar de finition of w h at th e cate gory re pre s e nts .
Sys te m Effe ctive ne s s

M anage rs and URs al      s o dis agre e d on th e e ffe ctive ne s s of th e s y s te m for
s upe rvis ing officialtim e . Fifty-s ix pe rce nt of m anage rs re porte d th e s y s te m of
s upe rvis ion to be s om e w h at or ve ry ine ffe ctive . Conve rs e l   y, th e m ajority of URs
re s ponde d th at th e s y s te m w as ve ry e ffe ctive . (Se e Tabl   e 6.)

                                               Table 6
                Effe ctive ne s s of th e Sys te m for Supe rvis ing O fficialTim e

                                     M anage rs          Union Re pre s e ntative s
Ve ry Ine ffe ctive                     31%                         8%
Som e w h at Ine ffe ctive              25                          2
Som e w h at Effe ctive                 25                         24
Ve ry Effe ctive                        11                         60
O th e r                                 4                          6
D id Not K now                           4                          0

M any m anage rs (103 out of 173 w h o re s ponde d to th e q ue s tion)and a fe w URs
(7 out of 76)h ad dis approving com m e nts w h e n as k e d w h y th e y pe rce ive d th e
e ffe ctive ne s s of th e s y s te m as th e y did. Ge ne ral   ly, th e m anage rs did not th ink th e
inform ation provide d on a com pl          e te d SSA -75 w as s ufficie nt to e ffe ctive ly
s upe rvis e th e officialtim e re q ue s te d/re porte d. Som e m anage rs s aid th e re are no
control   s and th e y h ave no auth ority or m e ans to m onitor th e us e of officialtim e .
O th e rs s tate d th at th e s y s te m re lie s on th e inte grity of th e e m ploye e w ith no
pe nal  tie s for m is us e . O ne m anage r s aid th at h is UR is th e onl     y e m pl
                                                                                        oye e h e
s upe rvis e s w h o can de te rm ine h is ow n h ours of w ork .

Favorabl    e re s pons e s w e re furnis h e d by 58 URs (out of 76)and 39 m anage rs (out
of 173)w h e n as k e d to e l    aborate on th e ir re s pons e s conce rning th e e ffe ctive ne s s
of th e s y s te m for s upe rvis ing officialtim e . URs re porte d th at th e s y s te m s e e m s to
be running e ffe ctive l   y. Th e y cite d a trus ting re lations h ip as prom oting
e ffe ctive ne s s and th at th e y re porte d al lus e of officialtim e . M os t of th e approving
re s pons e s from m anage rs and s om e from URs w e re from office s th at are s m al           lor
us e ve ry l ittle officialtim e . Al  s o, good re lations h ips w ith URs e licite d favorabl   e
com m e nts from th e m anage rs .

W e al  s o as k e d th e participants of th e s urve y w h at ch ange s th e y w ould m ak e to
th e s y s te m for s upe rvis ing officialtim e to m ak e it m ore e ffe ctive . Five pe rce nt of
m anage rs s aid th e re s h oul  d be an e m ph as is on accountabil   ity and 6 pe rce nt


                                                  11

th ough t th e re s h oul
                        d be m ore de tailon th e Form SSA -75. Five pe rce nt s aid th e y
ne e d re alauth ority and w oul   dl ik e jus tification and/or docum e ntation s upporting
th e ne e d for or us e of officialtim e . Tw e nty-one pe rce nt of th e m anage rs provide d
num e rous oth e r re s pons e s . Th e s e m anage rs did not th ink th e guide line s w e re
cl e ar and indicate d training m ay h e l  p. O th e rs s ugge s te d al
                                                                        lunion tim e s h ould be
capture d w h e th e r officialtim e or not. Tw o m anage rs s ugge s te d th at th e URs
s h ould re locate from th e ir w ork s tation w h e n on officialtim e s o th at tim e s pe nt on
union activitie s w oul  d be com e m ore appare nt. O ne s aid th at m anage rs do not
s upe rvis e officialtim e ;th e y only s ign th e officialtim e re q ue s t.

Fifty-e igh t pe rce nt of m anage rs s aid th e y w oul d m ak e no ch ange s for s upe rvis ing
officialtim e e ve n th ough th e y re porte d unfavorabl    y on th e s y s te m . Eigh ty-s ix
pe rce nt of URs re s ponde d s im il   arly. Five pe rce nt of th e m anage rs and 9 pe rce nt
of URs re porte d th e y did not k now w h at ch ange s to m ak e . Five pe rce nt of URs
                                                                                 ar to th e tim e
re porte d oth e r re s pons e s e .g., to h ave an autom ate d s y s te m s im il
and atte ndance s y s te m .

M A NAGERS H A D NO T RECEIVED A D EQUATE GUID A NCE O N TH E USE O F
O FFICIA LTIM E

O ve r h alf th e m anage rs re porte d th e y h ad not re ce ive d any training on th e us e of
officialtim e . Forty-e igh t pe rce nt s aid th e y h ad training, but of th e s e , m any
re porte d h aving re ce ive d th e training a l ong tim e ago. M os t of th e m anage rs w h o
w e re traine d, h ow e ve r, re porte d th e training to be accurate (88 pe rce nt), tim e ly
(76 pe rce nt), and h e l pful(83 pe rce nt). A fe w m anage rs did re port th e training
w as d e ficie nt in q ual
                         ity and q uantity.

Th e l ack of ade q uate guidance m ay e xpl    ain w h y m anage rs and URs disagre e on
w h o can us e officialtim e . M os t m anage rs (87 pe rce nt)and URs (84 pe rce nt)
re porte d th at s om e one w h o is not a UR coul    d not s ucce s s ful  ly s ubm it a Form SSA -
75. M anage rs and URs w h o be l     ie ve d oth e rw is e s aid a re q ue s t for officialtim e
coul  d be s ubm itte d: for an e m pl oye e pre paring for a grie vance ;for an e m pl       oye e
de s ignate d by a UR;or, if notification is give n by th e union th at an individualh as
be e n give n bank tim e . O ne m anage r s aid h e be l    ie ve d a h igh e r l
                                                                                e ve lunion official
in th e re gion can as s ign officialtim e to any bargaining unit e m pl         oye e .

Al m os t allof th e m anage rs (9 5 pe rce nt)re porte d th e y h ad an office th e y can turn
to for as s is tance on th e us e of officialtim e for union-re l  ate d activitie s . M os t of
th e m anage rs h ave found th e office to be us e ful  . Nine ty-four pe rce nt found it
accurate , 9 1 pe rce nt found it tim e ly, and 9 0 pe rce nt found it h e l pful  .

NO T SURPRISINGLY, URS SPENT M O RE TH AN TW ICE AS M UCH O F TH EIR TIM E
AS M A NAGERS O N UNIO N ACTIVITIES



                                                12

O n ave rage , m anage rs re porte d s pe nding 6.3 pe rce nt of th e ir tim e on union
activitie s . URs re porte d s pe nding cons ide rabl y m ore tim e . Th e y ave rage d al
                                                                                         m os t
15 pe rce nt of th e ir tim e on union activitie s . Table 7 on th e ne xt page provide s th e
various l  e ve l
                s of tim e s pe nt on union activity for both m anage rs and URs .




                                              13

                                          Tabl e 7
                               Tim e Spe nt on Union A ctivity

                                   M anage rs             Union Re pre s e ntative s
1 pe rce nt                           30%                           33%
2 pe rce nt                           15                            11
3 pe rce nt                             2                            6
4 pe rce nt                             0                            3
5 pe rce nt                           29                            10
6-10 pe rce nt                        14                            12
11-20 pe rce nt                         6                            6
21-9 9 pe rce nt                        4                           15
100 pe rce nt                           0                            4

M anage rs and URs re porte d th at th e tim e s pe nt on union activitie s w as s pe nt
doing a fe w diffe re nt tas k s . Th e m ajority of both m anage rs and URs re porte d
cons ul tation w ith e ach oth e r on ope rations as th e m os t com m on union activity. In
fact, 39 pe rce nt of th e m anage rs and 43 pe rce nt of th e URs re porte d fre q ue nt
invol ve m e nt (de fine d as al
                               m os t daily)in th e m anage r’ s d e cis ion m ak ing proce s s .
A l arge pe rce ntage of th e m anage rs (45 pe rce nt)and URs (40 pe rce nt)re porte d
th e invol ve m e nt as 1 or 2 tim e s pe r m onth . Th e re m aining m anage rs (16 pe rce nt)
and URs (17 pe rce nt)re porte d rare or no invol     ve m e nt.

Th e s e cond m os t cite d union activity w as tim e s pe nt on grie vance s or pote ntial
grie vance s . O th e r union activitie s re porte d w e re com pl
                                                                 e tion of Form s SSA-75 and
YY 404 re ports by m anage rs and union adm inis trative m atte rs re porte d by URs .
Th e Y Y 404 re port is an autom ate d s y s te m for re porting and col   le cting officialtim e
re q ue s te d on Form SSA -75.




                                                14

                                    CO NCLUSIO N


Th e re s pons e s to th e q ue s tionnaire s dis cl os e d th at m anage rs and URs ge ne ral
                                                                                             ly
h ad diffe ring obs e rvations conce rning th e officialtim e s y s te m at SSA . M anage rs
found th e officialtim e s y s te m l    e s s accurate and e ffe ctive th an did URs . Th e
m anage rs b e l ie ve d th at th e y h ad not re ce ive d ade q uate guidance on th e us e of
officialtim e . Som e m anage rs re porte d a s us picion of abus e by som e URs in th e ir
us e of officialtim e . Th e m ajority of both m anage rs and URs did not k now h ow
m any bank h ours w e re avail        able for e ach UR to us e . Th e re s pons e s by m anage rs
and URs re ve al    e d th at th e re w as a l  ack of unde rs tanding by s om e on h ow to
prope rl y re port and us e officialtim e .

AGENCY CO M M ENTS

Th e ful lte xt of th e A ge ncy’  s com m e nts are containe d in A ppe ndix D . SSA
e m ph as ize d th at th e O IG Council220 re port is a col          l
                                                                     e ction of opinions and
pe rce ptions bas e d on an uns cie ntific s am pl     e . Ne ve rth e l  e s s , th e A ge ncy s aw val
                                                                                                       ue
in th e obs e rvations of URs and fie l     d office /te l e s e rvice m anage rs . SSA note d th at
de cis ions by arbitrators and th e FLR A e s tabl       is h e d cas e l aw th at s e ts forth th e
practice s , proce dure s and l    im itations gove rning th e us e and m anage m e nt of
officialtim e . Th e A ge ncy be l   ie ve d th at th e l im itations e s tabl    is h e d by cas e l
                                                                                                    aw
undoubte dl    y h ad an e ffe ct on th e pe rce ptions of office m anage rs .

Re s ponding to s pe cific findings , SSA be l    ie ve d th at th e re port indicate d th at m os t
m anage rs w h o s us pe cte d abus e initiate d action for re s ol    ution. A l s o, th e A ge ncy
s tate d th at th e obs e rvations in th e re port dis pl aye d a cl e ar aw are ne s s and a
com parabl   e l e ve lof unde rs tanding by both m anage rs and URs about th e ne e d and
circum s tance s for com pl    e tion of th e officialtim e form . Final   ly, SSA s tate d th at
A FGE h as not e xce e de d its totalal     l
                                            ocation of bank h ours s ince th e conce pt w as
cre ate d w ith th e 19 9 0 Agre e m e nt.

O IG RESPO NSE

A s cie ntific s am pl
                     e provide d to th e O IG by SSA ’  s O W A w as us e d for th is s urve y.
H ow e ve r, w e re al
                     ize th at th e re w as a l
                                              ow re s pons e rate (52 pe rce nt) from URs
due to a l  ack of coope ration on th e ir part. In com paris on, 85 pe rce nt of th e
m anage rs re s ponde d to our s urve y.




                                                   15

In m ak ing our re com m e ndations , our inte nt is to e ns ure com pl   iance w ith th e
officialtim e re porting re q uire m e nts of th e curre nt col
                                                              le ctive bargaining
agre e m e nts . IfSSA is unabl    e to im pl
                                            e m e nt our re com m e ndations w ith in th e
confine s of th e curre nt agre e m e nts and th e param e te rs s e t by adm inis trative cas e
law , it s h ould addre s s th e m during ne gotiations for future col  le ctive bargaining
agre e m e nts . Ifs uch ne gotiations prove uns ucce s s ful  , SSA m ay w is h to s e e k a
le gis l
       ative re s ol
                   ution.

W e be lie ve th at th e pe rce ptions provide d by th e URs and office m anage rs h igh l    igh t
pote ntialw e ak ne s s e s w ith th e us e and re porting of officialtim e . Tw e nty pe rce nt
of th e m anage rs re porte d th at th e y took no action w h e n th e y s us pe cte d abus e of
officialtim e . M anage rs and th e URs re porte d th at officialtim e form s w e re
com pl e te d afte r officialtim e us e and th at th e duration of tim e ne e de d for union
activitie s w as a cons ide ration in w h e th e r or not to re port officialtim e . Th e lack of
re porting s m al lam ounts of officialtim e us e d and l    ack of k now l  e dge of h ow m any
bank h ours w e re avail    abl e cre ate s an e nvironm e nt w h e re individualURs coul  d
unk now ingl  y e xce e d th e ir al
                                   lotte d bank tim e .

Th e re s pons e s to th e s urve y s ugge s t th at th e re are m anage rs and URs w h o are
unce rtain about officialtim e proce dure s and th at th e proce dure s are not adh e re d
to in s om e SSA office s . In th e com m e nts to th is re port, SSA indicate d th at it is
active ly providing guidance on th e us e and m anage m e nt of officialtim e to its
m anage rs . Itm ay be appropriate to provide guidance to al            lindividuals involve d in
th e us e of officialtim e , incl uding URs , to e ns ure com pl                 lof th e pol
                                                                    iance w ith al           icie s
and proce dure s containe d in th e A gre e m e nt.




                                                16

A PPEND ICES

                                A PPEND IX A



UNIO N REPRESENTA TIVE QUESTIO NNA IRE

O FFICE O F TH E INSPECTO R GENERA L




      UNION ACTIVITIES AT THE
  SOCIAL SECURITY ADMINISTRATION
            CIN-02-97-72002




  Union Representative Questionnaire



                 A -1

                              INSTRUCTIONS

You are one of over 500 union representatives at SSA randomly selected to participate
in our survey. This questionnaire asks questions about the use of official time for union
activities. Your supervisor was also selected for the survey.

Please answer the questions on the following pages. It should take about 10 minutes
to finish this questionnaire. Most questions have directions printed in CAPITAL DARK
LETTERS. Please be sure to read and follow these directions. The answers you give
should be based on your own practices and opinions, and should refer to your
experience within Social Security.

If you have any questions about this survey, please call Tim Nee at 212-264-5295 or
toll-free at 1-800-772-8246. He will be happy to help you.

Please return the completed questionnaire in the postage-paid envelope. The
envelope has the appropriate address on it. If you misplace the postage-paid
envelope, please mail the questionnaire in an envelope addressed to:


                                     SSA/OIG/OA

                                    Room 39-118

                                   26 Federal Plaza

                                 New York, NY 10278


                              Attention: Tim Nee

_____________________________________________________________________________
PLEASE FILLIN TH E FO LLO W ING INFO RM A TIO N:

NAME__________________________________________ DATE___/___/___


PHONE NUMBER_________________________________


OFFICE__________________________________________


OFFICE CODE____________


SSA Component: (CIRCLE ONE)
   FO    TSC
1.    W h at is y our job titl
                             e ?________________________________________


                                          A -2

2.       H ow l
              ong h ave you be e n a union re pre s e ntative ?

      _____ye ars


3a.      D o you h ol
                    d any e xe cutive office r pos ition in your union?

      ____no

         ____ye s ;3b. W h at is y our titl
                                          e :___________________________________


4.	      About w h at pe rce nt of your tim e is s pe nt on union activitie s pe r ye ar?

      _____pe rce nt


5. W h at are typicalunion activitie s for you and w h at portion of your officialtim e
do you s pe nd on e ach ?

      (� AS M A NY AS APPLY)

         TypicalA ctivitie s                 Pe rce nt of O fficialTim e
         (m us t e q ual100% )

      a.� cons ul
                ting w ith m anage m e nt on ope rations               _____

      b.� grie vance s /pote ntialgrie vance s                 _____

      c.� union adm inis trative m atte rs                  _____

      d.� oth e r;s pe cify__________________________________              _____

      e .� oth e r;s pe cify__________________________________             _____

                            TO TA L        100%
6.       H ow ofte n do you com pl
                                 e te th e form (SSA -75) to re port/re q ue s t your us e of
         officialtim e ?

      (� O NLY O NE)

      � e ach union activity


                                                 A -3

      � e ach day


      � e ach pay pe riod


      � oth e r;s pe cify__________________________________________



7.       D o you us ual
                      ly com pl
                              e te th is form be fore or afte r you us e officialtim e ?

         (� O NLY O NE)

      � be fore

      � afte r

      � about e q ual


8.	      H ow do you de te rm ine w h e n officialtim e m us t be re porte d?

      (� O NLY O NE)

      � nature of activity

      � duration of activity

      � both th e nature and duration of activity

      � oth e r;s pe cify__________________________________________

9 . D o you al   w ay s com ple te th e form to re port/re q ue s t th e us e of officialtim e or
s k ip it for s m al
                   lpe riods of tim e (e .g. l
                                             e s s th an 15 m inute s )?       (� O NLY O NE)

      � al
         w ay s

      � s k ip s m al
                    lpe riods of tim e


10.      W h at do you do w ith th e com pl
                                          e te d form re porting/re q ue s ting your us e of
         officialtim e ?

      (� AS M A NY AS APPLY)



                                               A -4

   a.� k e e p copy


   b.� s e nd copy to th e union


   c.� give copy to m y office m anage r


   d.� oth e r;s pe cify________________________________



11.    W h e n doe s y our s upe rvis or/m anage r us ual
                                                        ly re turn th e officialtim e form to
       you?

   (� O NLY O NE)

   � w ith in one day

   � w ith in one w e e k

   � w ith in one pay pe riod

   � w ith th e Y Y re port

   � oth e r;s pe cify______________________________________


12.	   H ow doe s y our m anage r k now th at you are a union re pre s e ntative ?

   (� AS M A NY AS APPLY)

   a.� I tol
           d h im /h e r

   b.� s om e one e l
                    s e tol
                          d h im /h e r;W h o?(TITLE)_____________________

   c.� h e /s h e w as notifie d in w riting;By w h om ?(TITLE)________________

   d.� oth e r;s pe cify______________________________________

   e .� don't k now


13a. Could s om e one w h o is not a union re pre s e ntative s ucce s s ful
                                                                           ly s ubm it a
     form re porting/re q ue s ting th e us e of officialtim e ?

   � no


                                             A -5

   � ye s ;13b. H ow coul
                        d th is h appe n?


14.    D o you k now h ow bank h ours are al
                                           locate d?

   � no

   � ye s


15a. D o you k now h ow m any bank h ours y ou ge t pe r ye ar?

   � no

                                                   e ft for th is y e ar?
   � ye s ;15b. D o you k now h ow m any you h ave l

              � no

              � ye s


16.	   W h o de te rm ine s if officialtim e is appropriate l
                                                            y al
                                                               locate d be tw e e n bank and
       non-bank and th e ir s ub-cate gorie s ?

   � m anage r/s upe rvis or

   � union re pre s e ntative


17a. H as y our s upe rvis or e ve r q ue s tione d th e al
                                                          location of officialtim e be tw e e n
     bank and non-bank and th e ir s ub-cate gorie s ?

   � no

   � ye s , 17b. W h at h appe ne d?


18a. H ave you e ve r h ad a re q ue s t for officialtim e de nie d?

   � no

   � ye s ;18b. W h y?
18.c. H ow ofte n doe s th is h appe n?


                                              A -6

       (� O NLY O NE)


       � m ore th an once a w e e k


       � about once a w e e k


               e of tim e s a m onth
       � a coupl


       � a coupl
               e of tim e s a ye ar

       � rare l
              y (l
                 e s s th an once a ye ar)

       � oth e r;s pe cify__________________________


19 a. D o you s ign in and out e ach day?

   � no;19 b. W h y not?

   � ye s


20a. Is th is s im il
                    ar to th e proce dure s us e d by your cow ork e rs ?

   � no;20b. W h y not?

   � ye s


21.    W h at do you us ual
                          ly do about s igning in and out if you are off-s ite ?

   (� AS M A NY AS APPLY)

   a.� Ical
          lin to m y m anage r

   b.� Ical
          lin to m y m anage r or any s upe rvis or

   c.� Ical
          lin to anyone

   d.� Igive m y m anage r advance notice

   e .� oth e r;s pe cify____________________________________________



                                             A -7

22.	   H ow ofte n are you off-s ite ?

   (� O NLY O NE)

   � m ore th an once a w e e k

   � about once a w e e k

           e of tim e s a m onth
   � a coupl

   � rare l
          y (l
             e s s th an once a m onth )

   � oth e r;s pe cify__________________________

23.	   D o you w ork at th e s am e s ite as y our m anage r?

   � no

   � ye s


24.    W ould you s ay your s upe rvis or's pol
                                              icy on re porting officialtim e is form alor
       inform al
               ?

       (� O NLY O NE)

       � ve ry form al

       � s om e w h at form al

       � s om e w h at inform al

       � ve ry inform al


25a. H ow accurate is th e s y s te m for re porting th e us e of officialtim e ?

   (� O NLY O NE)

   � ve ry inaccurate

   � s om e w h at inaccurate



                                            A -8

   � s om e w h at accurate

       � ve ry accurate


       25b. W h y do you s ay th at?


26a. H ow e ffe ctive is th e s y s te m for s upe rvis ing th e us e of officialtim e ?

   (� O NLY O NE)

   � ve ry ine ffe ctive

   � s om e w h at ine ffe ctive

   � s om e w h at e ffe ctive

   � ve ry e ffe ctive


       26b. W h y do you s ay th at?


27.    W h at ch ange s w oul
                            d you m ak e in th e s y s te m s for:

       a. al
           locating bank h ours ?               � none



       b. re porting officialtim e ?                  � none



       c. s upe rvis ing officialtim e ?        � none



28a. D o you e ve r s e e copie s of th e Y Y re ports ?

   � no

   � ye s ;28b. H ow do you us e th e s e re ports ?



                                              A -9

29 .   W h at adm inis trative s upport doe s SSA provide you w ith for union activitie s
       and h ow m uch doe s it cos t annual   y?
                                              l

   (W RITE “0”FO R NO NE & USE “D K ”IF Y O U D O N'T K NO W )

   a.� Trave l
             --          $______


   b.� Space --          $_______


   c.� Ph one s -- $______


   d.� Suppl
           ie s -- $______


30a. H ave you e ve r h ad an adm inis trative s upport cos t de nie d?

   � no

   � ye s ;30b. W h at h appe ne d?



31.	   W h at adm inis trative s upport doe s th e union pay for and h ow m uch doe s it
       cos t?



32.    A re you pe rs onal
                         ly invol
                                ve d in any partne rs h ip council
                                                                 s at SSA ?

   � no (IF NO , SK IPTO Q UESTIO N 34)

       � ye s


33a.	 H as partne rs h ip incre as e d your us e of officialtim e ?

       � no

       � ye s ;33b. W il
                       lit continue to ris e ?



                                            A -10

               � no

               � ye s


34.    H ow ofte n doe s y our m anage r invol
                                             ve you in h is /h e r de cis ion m ak ing
       proce s s ?

       (� O NLY O NE)

   � fre q ue ntl
                y (al
                    m os t dail
                              y)

   � s om e tim e s (1 or 2 tim e s a m onth )

          y (1 or 2 tim e s a ye ar)
   � rare l

   � ne ve r


35.	   Is th e re anyth ing e l
                              s e y ou w oul
                                           dlik e to s h are w ith us about re porting and
       s upe rvis ing officialtim e at SSA ?




                                            A -11

                         A PPEND IX B



M A NAGER QUESTIO NNA IRE

O FFICE O F TH E INSPECTO R GENERA L




      UNION ACTIVITIES AT THE
  SOCIAL SECURITY ADMINISTRATION
           CIN-02-97-72002




       Manager Questionnaire
                              INSTRUCTIONS


You are one of over 500 employees at SSA selected to participate in our survey. This
questionnaire asks questions about the use of official time for union activities.

Please answer the questions on the following pages. It should take about 10 minutes
to finish this questionnaire. Most questions have directions printed in CAPITAL DARK
LETTERS. Please be sure to read and follow these directions. The answers you give
should be based on your own practices and opinions, and should refer to your
experience within Social Security.

If you have any questions about this survey, please call John Molnar at 212-264-5295
or toll-free at 1-800-772-8246. He will be happy to help you.

Please return the completed questionnaire in the postage-paid envelope. The
envelope has the appropriate address on it. If you misplace the postage-paid
envelope, please mail the questionnaire in an envelope addressed to:

                                    SSA/OIG/OA

                                   Room 39-118

                                  26 Federal Plaza

                                New York, NY 10278


                             Attention: John Molnar

______________________________________________________________________________
PLEASE FILLIN TH E FO LLO W ING INFO RM A TIO N:

NAME__________________________________________ DATE___/___/___


PHONE NUMBER_________________________________


OFFICE NAME__________________________________________


OFFICE CODE_____________________

SSA Component: (circle one)
     FO  TSC
1. H ow l
        ong h ave you be e n a m anage r/s upe rvis or?

      _____ye ars


2.	      W h at are th e prim ary adm inis trative conce rns y ou addre s s e ach day as a
         m anage r/s upe rvis or?



3.	      About w h at pe rce nt of your tim e is s pe nt on union activitie s ?

      ___pe rce nt


4.	      W h at are typicalunion activitie s for you and w h at pe rce nt of your union
         tim e do you s pe nd on e ach ?

      (� AS M A NY AS APPLY)

         TypicalA ctivitie s                Pe rce nt of Union Tim e
         (m us t e q ual100% )

      a.� cons ul
                ting w ith union on ope rations            ______

      b.� grie vance s and pote ntialgrie vance s          ______

      c.� com pl
               e ting 75s and YY 404 re port               ______

      d.� oth e r;s pe cify________________________________ ______

      e .� oth e r;s pe cify________________________________ ______

                              TO TA L 100%

5a.      Coul
            d you docum e nt th e am ount of tim e you s pe nt on union activitie s ?

      ___no

      ___ye s ;5b. W h at type of docum e ntation do you h ave ?

6.       H ow coul
                 d m anage m e nt tim e re l
                                           ate d to union activitie s be track e d?
7.	      W h at are typicalunion activitie s for your union re pre s e ntative and w h at
         proportion of th e ir officialtim e do th e y s pe nd on e ach ?

      (� AS M A NY AS APPLY)

         TypicalA ctivitie s                 Pe rce nt of O fficialTim e
         (m us t e q ual100 % )

      a.� cons ul
                ting w ith m anage m e nt on ope rations            _____

      b.� grie vance s /pote ntialgrie vance s              _____

      c.� union adm inis trative m atte rs              _____

      d.� oth e r;s pe cify_______________________________ _____

      e .� oth e r;s pe cify_______________________________         _____

                              TO TA L 100%

8.       H ow ofte n doe s y our union re pre s e ntative com pl
                                                               e te th e form (SSA -75) to
         re q ue s t/re port th e us e of officialtim e ?

      (� O NLY O NE)

      � e ach activity

      � e ach day

      � e ach pay pe riod

      � oth e r;s pe cify__________________________________________


9.       D oe s y our union re pre s e ntative us ual
                                                    ly com pl
                                                            e te th is form be fore or afte r
         th e y us e officialtim e ?

         (� O NLY O NE)

         � be fore

         � afte r
      � about e q ual


10.   W h at factor prim aril
                            y de te rm ine s w h e n officialtim e m us t be re porte d?

  (� O NLY O NE)

  � nature of activity

  � duration of activity

  � both th e nature and duration of activity

  � oth e r;s pe cify__________________________________________



11.   D oe s y our union re pre s e ntative al w ay s com pl e te th e form to re q ue s t/re port
      th e us e of officialtim e or s k ip it for s m al
                                                       lpe riods of tim e (e .g. 15 m inute s )?

  (� O NLY O NE)

  � al
     w ay s

  � s k ip s m al
                lpe riods of tim e


12.   W h at do you do w ith th e com pl
                                       e te d form re q ue s ting/re porting th e us e of
      officialtim e ?

  (� AS M A NY AS APPLY)

  a.� k e e p copy

  b.� s e nd copy to m y s upe rvis or

  c.� s e nd copy to m y L/M R office

  d.� give copy to union re pre s e ntative

  e .� oth e r;s pe cify________________________________
13.    H ow l
            ong do you k e e p your copy of th e form ?


14.    W h e n do you us uall
                            y re turn th e approve d officialtim e form to your union
       re pre s e ntative ?

   (� O NLY O NE)

   � w ith in one day

   � w ith in one w e e k

   � w ith in one pay pe riod

   � w ith th e Y Y re port

   � oth e r;s pe cify______________________________________

15.	   H ow do you k now th at your union re pre s e ntative is a union re pre s e ntative ?

   (� AS M A NY AS APPLY)

   a.� h e /s h e tol
                    d me

   b.� s om e one e l
                    s e tol
                          d m e ;W h o?(TITLE)______________________________

   c.� Iw as notifie d in w riting;By w h om ?(TITLE)________________________

   d.� oth e r;s pe cify__________________________________________


16a. Could s om e one w h o is not a union re pre s e ntative s ucce s s ful
                                                                           ly s ubm it a
     form re q ue s ting/re porting th e us e of officialtim e ?

   � no

   � ye s ;16b. H ow coul
                        d th is h appe n?


17.	   D o you k now h ow bank h ours are dis tribute d?

   � no

   � ye s
18a. D o you k now h ow m any bank h ours y our union re pre s e ntative ge ts pe r
ye ar?

   � no

   � ye s ;18b. D o you k now h ow m any th e y h ave l
                                                      e ft for th is y e ar?

              � no

              � ye s


19 .   W h o de te rm ine s if officialtim e is appropriate l
                                                            y al
                                                               locate d be tw e e n bank and
       non-bank and th e ir s ub-cate gorie s ?

   � m anage r/s upe rvis or

   � union re pre s e ntative


20a. H ave you e ve r q ue s tione d th e al
                                           location of officialtim e be tw e e n bank and
     non-bank and th e ir s ub-cate gorie s ?

   � no

   � ye s ;20b. W h at h appe ne d?

21a. H ave you e ve r de nie d a re q ue s t for officialtim e ?

   � no

   � ye s ;21b. W h y?



   21c. 	H ow ofte n doe s th is h appe n?

          (� O NLY O NE)

          � m ore th an once a w e e k

          � about once a w e e k
          � a coupl
                  e of tim e s a m onth

                  e of tim e s a ye ar
          � a coupl

          � rare l  e s s th an once a ye ar)
                 y (l

          � oth e r;s pe cify__________________________

22.    D oe s y our union re pre s e ntative s ign in and out e ach day?

   � no

   � ye s


23a. Is th is s im il
                    ar to th e proce dure s us e d by your oth e r s taff?

       � no;23b. W h y not?

       � ye s


24.	   W ith re gard to s igning in and out, w h at doe s y our union re pre s e ntative
       us ualy do if h e /s h e is off-s ite ?
             l

   (� AS M A NY AS APPLY)

   a.� th e y cal
                lin to m e

   b.� th e y cal
                lin to m e or any s upe rvis or

   c.� th e y cal
                lin to anyone

   d.� th e y give m e advance notice

   e .� oth e r;s pe cify_____________________________________________



25.	   H ow ofte n are th e y off-s ite ?

   (� O NLY O NE)
   � m ore th an once a w e e k

   � about once a w e e k

   � a coupl
           e of tim e s a m onth

   � rare l
          y (l
             e s s th an once a m onth )

   � oth e r;s pe cify__________________________


26.	   D o you w ork at th e s am e s ite as y our union re pre s e ntative ?

   � no

   � ye s


27.    W oul d you s ay your s upe rvis or's pol
                                               icy on re porting th e us e of officialtim e
       is form alor inform al
                            ?

       (� O NLY O NE)

       � ve ry form al

       � s om e w h at form al

       � s om e w h at inform al

       � ve ry inform al


28a. H ave you e ve r s us pe cte d abus e of officialtim e ?

   � no;28b. W h at w oul
                        d you do if you did?



   � ye s ;28c. W h at did you do?


29 a. H ow accurate is th e s y s te m for re porting th e us e of officialtim e ?

   (� O NLY O NE)
   � ve ry inaccurate

   � s om e w h at inaccurate

   � s om e w h at accurate

   � ve ry accurate


   29 b. W h y do you s ay th at?


30a. H ow e ffe ctive is th e s y s te m for s upe rvis ing th e us e of officialtim e ?

   (� O NLY O NE)

   � ve ry ine ffe ctive

   � s om e w h at ine ffe ctive

   � s om e w h at e ffe ctive

   � ve ry e ffe ctive


   30b. W h y do you s ay th at?



31.    W h at ch ange s w oul
                            d you m ak e in th e s y s te m s for:

   a. al
       locating bank h ours ?                � none



   b. re porting officialtim e ?             � none



   c. s upe rvis ing officialtim e ?            � none
32a. D o you e ve r s e e copie s of th e Y Y re ports ?

   � no

   � ye s ;32b. H ow do you us e th e s e re ports ?


33.	   W h at adm inis trative s upport doe s SSA provide your union re pre s e ntative for
       union activitie s and h ow m uch doe s it cos t annual
                                                            ly?

   (� AS M A NY AS APPLY)

   (W RITE “0”FO R NO NE, O R “
                              D K ”IF Y O U D O N'T K NO W )

   a.� Trave l--         $__________


   b.� Space --          $__________


   c.� Ph one s --       $__________


   d.� Suppl
           ie s --       $__________


34a.	 H ave you e ve r de nie d any adm inis trative s upport to your union
      re pre s e ntative ?

   � no

   � ye s ;34b. W h at h appe ne d?



35.	   W h at adm inis trative s upport doe s th e union provide your union
       re pre s e ntative ?



36a. A re you or your union re pre s e ntative pe rs onal
                                                        ly invol
                                                               ve d in any partne rs h ip
     councils?

   � no (IF NO , SK IPTO Q UESTIO N 37)
   � ye s


   36b. H as partne rs h ip incre as e d th e us e of officialtim e ?

          � no

          � ye s ;36c. W il
                          lit continue to?

                     � no
                     � ye s


37.   H ow ofte n do you invol
                             ve your union re pre s e ntative in your de cis ion m ak ing
      proce s s ?

   (� O NLY O NE)

   � fre q ue ntl
                y (al
                    m os t dail
                              y)

   � s om e tim e s (1 or 2 tim e s a m onth )

   � rare l
          y (1 or 2 tim e s a ye ar)

   � ne ve r


38a. H ave you re ce ive d any training on th e us e of officialtim e for union-re l
                                                                                   ate d
     activitie s ?

   � no

   � ye s ;38b. W as th e training ge ne ral
                                           ly:

          b. accurate ? � no           � ye s

          c. tim e l
                   y?       � no       � ye s

                     d. h e l
                            pful
                               ?       � no        � ye s


39 a. D o you h ave an office you can turn to for as s is tance on th e us e of official
tim e for union re l
                   ate d activitie s ?
   � no


   � ye s ;39 b. Is th e ir as s is tance ge ne ral
                                                  ly
 :

           b. accurate ? � no             � ye s

           c. tim e l
                    y?        � no        � ye s

           d. h e l
                  pful
                     ?        � no        � ye s


40a.	 Is officialtim e auth orize d for any oth e r activitie s , s uch as m anage m e nt
      organizations or oth e r non-union activitie s ?

   � no

   � ye s ;40b. W h ich one s ?



       40c. About h ow m any h ours are us e d pe r m onth for e ach ?


41.	   Is th e re anyth ing e l
                              s e y ou w oul
                                           dlik e to s h are w ith us about re porting and
       s upe rvis ing officialtim e at SSA ?
                         A PPEND IX C



O FFICIA LTIM E FO RM

                      A PPEND IX D



AGENCY CO M M ENTS

                                                                                  A PPEND IX E



            M A JO R REPO RT CO NTRIBUTO RS

   O ffice of th e Ins pe ctor Ge ne ral

   E. Scott Patte rs on, D ire ctor, Evaluations and Te ch nicalSe rvice s
   Tim Ne e , D e puty D ire ctor
   Robe rt T. Bl ak e , Se nior Auditor
   Trace y K . Re nnie , Se nior Eval uator
   Alan L. Lang, Se nior Auditor

For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Public A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -02-9 7-72002.
                              A PPEND IX F



SSA O RGA NIZ A TIO NA LCH ART

